Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  COMPARISON OF PRICES FOR
  NEGATIVE PRESSURE WOUND
       THERAPY PUMPS




                    Daniel R. Levinson
                     Inspector General

                       March 2009
                     OEI-02-07-00660
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
Δ   E X E C U T I V E                                  S U M M A R Y


                  OBJECTIVES
                  (1) To compare the prices that suppliers paid for new negative pressure
                      wound therapy pump models to Medicare’s purchase price for the
                      pumps.

                  (2) To describe how suppliers acquired these new pumps.

                  (3) To describe the extent to which suppliers reported providing
                      required services to Medicare beneficiaries who rented these pumps.


                  BACKGROUND
                  Negative pressure wound therapy pumps (the pumps) are portable or
                  stationary devices used for the treatment of ulcers or wounds that have
                  not responded to traditional wound treatment methods. Medicare pays
                  for the pumps under Part B coverage of durable medical equipment,
                  prosthetics, orthotics, and supplies (DMEPOS) as a capped rental item.
                  Between 2001 and 2007, Medicare payments for these pumps increased
                  583 percent, from $24 million to $164 million.

                  When Medicare first started covering pumps in 2001, it covered only one
                  model, which was both manufactured and supplied by Kinetic Concepts,
                  Inc. (KCI). Medicare reimbursed KCI for this pump based on the
                  purchase price as identified by KCI. Beginning in 2005, Medicare
                  expanded its coverage to include several new pump models that are
                  manufactured by other companies. Medicare reimburses suppliers for
                  these new pumps based on the purchase price of the KCI pump.

                  This study compares the prices that suppliers paid for new pump
                  models to Medicare’s purchase price. Although the new pump models
                  currently account for a small percentage of the pump market, their
                  market share may grow rapidly if there is a large difference between the
                  amount that suppliers pay for these pumps and the amount that they
                  are reimbursed by Medicare. Wide profit margins may also make
                  pumps vulnerable to fraud, waste, and abuse.




OEI-02-07-00660   C O M PA R I S O N   OF   PRICES   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S   i
E X E C U T I V E                        S U          M M A R Y




                   FINDINGS
                   Suppliers paid an average of $3,604 for the new pump models,
                   compared to Medicare’s purchase price of $17,165. Suppliers
                   purchased 171 of the 223 new pump models that were provided to
                   beneficiaries in the first half of 2007. Suppliers paid an average of
                   $3,604 for these pumps. Medicare reimbursed suppliers for these
                   pumps based on a purchase price of $17,165, which is more than four
                   times the average price paid by suppliers. On a monthly basis,
                   Medicare reimbursed suppliers $1,716 for these pumps for the first 3
                   months. At this rate, suppliers recouped the average cost of a new
                   pump model in about 2 months. Further, beneficiaries’ coinsurance
                   payments for pumps cover a substantial portion of the average cost of a
                   new pump model. After just 4 months of rental, a beneficiary’s
                   coinsurance of $1,286 covers over one-third (36 percent) of the average
                   cost of a new pump model.
                   Suppliers acquired one-quarter of the new pump models by
                   leasing, renting, or exchanging them. Suppliers acquired nearly
                   one-quarter (52 of 223) of the new pump models provided to
                   beneficiaries in the first half of 2007 through methods other than
                   purchasing them. They acquired these pumps through lease-to-own
                   agreements, daily rentals, hourly rentals, or exchanges of old pumps for
                   new ones.
                   Suppliers reported not always communicating with beneficiaries’
                   clinicians, as required; however, they appeared to meet other
                   standards. Suppliers are required to communicate with the
                   beneficiary’s treating clinician to assess wound healing progress and to
                   determine whether the beneficiary continues to qualify for Medicare
                   coverage of the pump. In addition, suppliers must meet certain
                   standards that include providing delivery and instruction on equipment
                   usage (either from the supplier or another qualified party), maintaining
                   and repairing the equipment as needed, and responding to beneficiaries’
                   questions and complaints about the equipment. Suppliers reported not
                   having contact with clinicians for almost one-quarter of the
                   beneficiaries. Suppliers reported delivering the pumps and educating
                   almost all of the beneficiaries, as well as providing maintenance and
                   repairs when needed.




 OEI-02-07-00660   C O M PA R I S O N   OF   PRICES   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S   ii
E X E C U T I V E                        S U          M M A R Y



                   RECOMMENDATIONS
                   Based on the findings in this report, we recommend that CMS:

                   Reduce Medicare’s reimbursement amount for pumps. CMS should
                   consider two methods to reduce its reimbursement amount for pumps.
                   CMS should:
                    •     Use its inherent reasonableness authority to reduce the reimbursement
                          amount for pumps. CMS should consider using its inherent
                          reasonableness authority to reduce the amount that it reimburses
                          suppliers for pumps.
                    •     Include pumps in the second round of the the Competitive Bidding
                          Acquisition Program. CMS should include pumps in the second round
                          of the Competitive Bidding Acquisition Program. This could better
                          align Medicare’s reimbursement amount for pumps with the amount
                          that suppliers pay for the new pump models.
                   In addition, CMS should:

                   Monitor the growth of the new pump market. CMS should continue to
                   monitor the growth of the new pump market by tracking trends in market
                   share among different suppliers.
                   Educate suppliers of new pump models on the importance of
                   communication with beneficiaries’ treating clinicians. CMS should
                   educate suppliers of new pump models that the continued need for a
                   pump can be determined only through clinician input and that it is
                   inappropriate for suppliers to submit claims for continued pump use
                   without this input.
                   Follow up on the pump claims that may be inappropriate. CMS
                   should follow up on the claims in which suppliers: (1) reported having no
                   contact with the beneficiaries’ treating clinicians, (2) could not be
                   located, or (3) did not submit any documentation. To help CMS address
                   this recommendation, we will forward information about these claims in
                   a separate memorandum.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred with four of our recommendations and will consider the
                   remaining recommendation. It noted that it has worked on a number of
                   regulatory and administrative initiatives related to the prescription,


 OEI-02-07-00660   C O M PA R I S O N   OF   PRICES   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S   iii
E X E C U T I V E                        S U          M M A R Y


                   coding, and coverage of pumps in response to the significant growth in
                   expenditures for these items.

                   In response to our recommendations, CMS concurred that it has the
                   authority to adjust payment rates using Medicare’s inherent
                   reasonableness authority. It stated that it will consider whether it
                   would be able to gather valid and reliable data, as the statute
                   requires, to make a determination that the payment amount for
                   pumps is grossly deficient or excessive and to establish, if needed, a
                   new amount that is realistic and equitable. CMS also stated that it
                   will consider including pumps when designing the second round of the
                   Competitive Bidding Acquisition Program. Further, CMS stated that
                   it will monitor and track trends in utilization of pumps and track the
                   market share among different pump suppliers. CMS also concurred
                   with our recommendation to educate pump suppliers on the
                   importance of communication with beneficiaries’ treating clinicians.
                   Lastly, CMS concurred with our recommendation to follow up on
                   pump claims that may be inappropriate and stated that it is working
                   with its contractors to strengthen its oversight in this area.

                   We support CMS’s efforts to address these issues and encourage it to
                   continue to make progress in these areas.




 OEI-02-07-00660   C O M PA R I S O N   OF   PRICES   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S   iv
Δ   T A B L E          O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1



         FINDINGS ................................................. 9
           Suppliers paid an average of $3,604 for new pump models . . . . . . . . . .                                 9

           Suppliers acquired one-quarter of these pumps by leasing, renting, or
           exchanging them . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

           Suppliers reported not always communicating with clinicians . . . . . . . 12



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
           Agency Comments and Office of Inspector General Response . . . . . . . . 15



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
                   A: DMEPOS Competitive Bidding Winning Amounts . . . . . . . . . 17

                   B: Local Coverage Determination for Pumps . . . . . . . . . . . . . . . . 18

                   C: Medicare DMEPOS Supplier Standards. . . . . . . . . . . . . . . . . . 19

                   D: Centers for Medicare & Medicaid Services Comments. . . . . . . 20



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Δ   I N T R O D U C T I O N


                  OBJECTIVES
                  (1) To compare the prices that suppliers paid for new negative pressure
                      wound therapy pump models to Medicare’s purchase price for
                      pumps.

                  (2) To describe how suppliers acquired these new pumps.

                  (3) To describe the extent to which suppliers reported providing
                      required services to Medicare beneficiaries who rented these pumps.


                  BACKGROUND
                  Negative pressure wound therapy pumps (the pumps) are portable or
                  stationary devices used for the treatment of ulcers or wounds that have
                  not responded to traditional wound treatment methods. Medicare pays
                  for pumps under Part B coverage of durable medical equipment,
                  prosthetics, orthotics, and supplies (DMEPOS) as a capped rental
                  item. 1 Between 2001 and 2007, Medicare payments for these pumps
                  increased 583 percent, from $24 million to $164 million.

                  When Medicare first started covering pumps in 2001, it covered only one
                  model, which was both manufactured and supplied by Kinetic Concepts,
                  Inc. (KCI). Medicare reimbursed KCI for this pump based on the
                  purchase price as identified by KCI. Beginning in 2005, Medicare
                  expanded its coverage to include several new pump models that are
                  manufactured by other companies. 2 Medicare reimburses suppliers for
                  these new pumps based on the purchase price of the KCI pump.

                  There are indications that Medicare’s purchase price for pumps may be
                  high compared to what suppliers pay for the new pump models. In fact,
                  an executive from one of the manufacturers that produces new pump
                  models publicly stated that Medicare’s current reimbursement is too
                                                  3
                  high for this type of equipment. This manufacturer further noted that


                         1 42 CFR § 414.210(b)(2); 42 CFR § 414.229.
                         2 We refer to all non-KCI pump models as the new pump models to distinguish them
                     from the KCI pumps.
                         3 Market Wire, “Bluesky Medical Requests a Decrease in the Reimbursement for
                     Negative Pressure Wound Therapy Market,” June 2002. Available online at
                     http://www.findarticles.com/p/articles/mi_pwwi/is_200206/ai_mark09043751. Accessed on
                     May 4, 2007.



OEI-02-07-00660   C O M PA R I S O N   OF   PRICES   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S   1
I N T R O D        U C T             I O N


                    it could provide its pumps for a significantly lower reimbursement
                             4
                    amount.
                    In addition, although the new pump models currently account for a
                    small percentage of the pump market, their market share may grow
                    rapidly if there is a large difference between the amount that suppliers
                    pay for these pumps and the amount that they are reimbursed by
                    Medicare. 5 Wide profit margins may also make pumps vulnerable to
                    fraud, waste, and abuse.
                    Negative Pressure Wound Therapy Pumps
                    A pump is a wound therapy option for individuals with specific types of
                    wounds and ulcers. The devices apply controlled negative or
                    subatmospheric pressure to the affected site and assist in removing
                    fluid, increasing blood flow to the site, and stimulating the growth of
                    granulation tissue. 6 The Food and Drug Administration (FDA), under its
                    510(k) approval process, considers pumps to be medical devices that are
                    substantially equivalent to previously approved powered suction pumps.7
                    Presently, KCI is the principal manufacturer and supplier of pumps for
                    Medicare beneficiaries. Unlike other companies, KCI manufactures its
                    own pump and rents it directly to beneficiaries. In contrast, the new pump
                    models are manufactured by a number of companies, including Smith &
                    Nephew;8 Superior Healthcare Concepts, Inc.; Boehringer Wound Systems,
                    LLC; Medela; Innovative Therapies, Inc.; and Prospera. These companies
                    sell their pumps to suppliers, which then rent them to Medicare


                         4 Travis E. Poling, “KCI Hit by Stunning Court Loss,” San Antonio Express-News,

                       August 4, 2006, at 01D.
                         5 The new pump models accounted for about 1 percent of the pump market in the first
                       half of 2007.
                          6 Granulation tissue is a specialized tissue that is rich in tiny blood vessels and is
                       created by the body as a response to injury.
                          7 Section 510(k) of the Federal Food, Drug, and Cosmetic Act (21 U.S.C. § 360(k))
                       requires device manufacturers to notify FDA, at least 90 days in advance, of their intent
                       to market a medical device. A device must be “substantially equivalent” to a device on
                       the market prior to May 28, 1976 (a “predicate device”), in terms of design, material,
                       chemical composition, energy source, manufacturing process, or intended use. Before
                       marketing a device, each submitter must receive an order, in the form of a letter from
                       FDA, that finds the device to be substantially equivalent and states that the device may
                       be marketed in the United States. This order “clears” the device for commercial
                       distribution. See 21 CFR § 878.4780 for product identification and classification
                       information for the powered suction pump.
                           8 In May 2007, Smith & Nephew acquired Bluesky Medical Group, Inc.




 OEI-02-07-00660    C O M PA R I S O N   OF   PRICES   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S   2
I N T R O D        U C T             I O N


                    beneficiaries. They use the same Healthcare Common Procedure Coding
                    System (HCPCS) code as the KCI pump to bill Medicare for the new pump
                    models.
                    Medicare Pricing for Pumps
                    Medicare covers pumps under a capped rental arrangement. 9 Under
                    this arrangement, Medicare pays suppliers a monthly fee schedule
                    amount for each month that they rent the pumps to beneficiaries.
                    Medicare uses the purchase price for the KCI pump to calculate the
                    monthly fee schedule amounts. Similar to other capped rental items, for
                    the first 3 months of rental, the monthly fee schedule amount equals
                    10 percent of the purchase price. 10 For months 4 through 13, the
                    monthly fee schedule amount equals 7.5 percent of the purchase price. 11
                    After the 13th continuous month of rental, the supplier must transfer
                    title of the equipment to the beneficiary. 12
                    The fee schedule amount for pumps is the same in all 50 States and the
                    District of Columbia. In 2007, Medicare’s purchase price for pumps was
                    $17,165. The monthly fee schedule amount was $1,716 for the first 3
                    months and $1,287 for months 4 through 13. Medicare reimburses
                    suppliers 80 percent of the monthly fee schedule amount. Beneficiaries’
                    coinsurance payments are typically 20 percent, which amounted to $343
                    for the first 3 months and $257 for months 4 through 13 in 2007. 13
                    The Competitive Bidding Acquisition Program
                    As required by the Medicare Prescription Drug, Improvement, and
                    Modernization Act of 2003, CMS started to implement a competitive
                    bidding acquisition program for certain DMEPOS in 2007. 14 The goal of
                    the program was to reduce beneficiary out-of-pocket costs and improve




                           9 42 CFR § 414.229.
                           10 42 U.S.C. § 1395m(a)(7)(A)(i); 42 CFR § 414.229(b)(2).
                           11 Ibid.
                           12 42 U.S.C. § 1395m(a)(7)(A)(ii); 42 CFR § 414.229(f)(2).
                           13 42 U.S.C. § 1395cc(a)(2)(A)(ii); 42 CFR § 489.30(b)(5).
                           14 Medicare Prescription Drug, Improvement, and Modernization Act of 2003,
                       P.L. No. 108-173, § 302(b) (codified as amended at 42 U.S.C. §1395w-3).



 OEI-02-07-00660    C O M PA R I S O N   OF   PRICES   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S   3
I N T R O D        U C T             I O N


                    the accuracy of Medicare payments. 15 The pump was 1 of 10 DMEPOS
                    in the program. The program included the 10 largest Metropolitan
                    Statistical Areas (MSAs) in the first round and was expected to include
                    80 MSAs in the second round. 16
                    In the spring of 2008, CMS announced the winning suppliers for the
                    first round, known as contract suppliers, and the monthly fee schedule
                    amounts based on the winning purchase prices. KCI did not participate
                    in the first round; therefore, these amounts were based on bids from
                    suppliers that provided the new pump models. All of the amounts were
                    lower than Medicare’s current reimbursement amount and averaged
                    about $1,446 per month. 17 See Appendix A for a list of the monthly fee
                    schedule amounts for the first round of competitive bidding.

                    In July 2008, Congress enacted the Medicare Improvements for Patients
                    and Providers Act of 2008, which delayed the first round of the
                    Competitive Bidding Acquisition Program until 2011. The law also
                    excluded pumps from the first round of the program and, instead,
                    required the Department of Health and Human Services to evaluate the
                    HCPCS code for pumps to ensure accurate reporting and billing and to
                    consider whether coding changes are needed. 18 According to CMS staff,
                    CMS plans to conduct this evaluation but, as of November 2008, has not
                    initiated the study.
                    CMS Authority for Price Revisions
                    CMS or a Medicare carrier may establish limits on payment amounts in
                    special circumstances through regulations that govern criteria for
                    determining reasonable charges for Part B services. 19 Specifically, CMS


                         15 CMS Medicare Fact Sheet, “Expansion of Competitive Bidding Program for Durable
                       Medical Equipment, Prosthetics, Orthotics, and Supplies,” issued January 8, 2008.
                       Available online at http://www.cms.hhs.gov/apps/media/press/factsheet.asp?
                       Counter=2812&intNumPerPage=10&checkDate. Accessed on August 6, 2008.
                           16 MSAs are areas designated by the Office of Management and Budget that include
                       major cities and the suburban areas surrounding them.
                           17 These amounts reflect the first 3 months of rental. From months 4 through 13, the
                       fee schedule amounts are equivalent to 7.5 percent of the winning purchase prices.
                           18 Medicare Improvements for Patients and Providers Act of 2008, P.L. No. 110-275,
                       § 154(c)(3) (to be codified at 42 U.S.C. § 1395m note).
                           19 42 CFR § 405.502(g). Note that Medicare carriers are under contract with CMS to
                       process Medicare Part B claims. There are four carriers, known as Durable Medical
                       Equipment (DME) Medicare Administrative Contractors, that specifically process DME
                       claims.



 OEI-02-07-00660    C O M PA R I S O N   OF   PRICES   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S   4
I N T R O D        U C T             I O N


                    may use its inherent reasonableness authority to deviate from standard
                    payment methodologies if the application of these methodologies results
                    in a payment amount that is determined to be grossly excessive or
                    deficient. In these cases, CMS or its carriers may establish special
                    payment limits that are realistic and equitable.
                    Medicare DMEPOS Supplier Requirements
                    The Local Coverage Determination (LCD) for pumps specifies the
                    clinical circumstances under which pumps are considered to be
                    reasonable and necessary. 20 The LCD states that suppliers must
                    communicate with the beneficiary’s treating clinician to determine
                    whether the beneficiary continues to qualify for Medicare coverage of
                    the pump. The supplier may contact the clinician by verbal or written
                    communication to ascertain that wound healing is occurring from month
                    to month. Appendix B provides information regarding the relevant LCD
                    requirement.

                    In addition, to obtain Medicare billing privileges, suppliers must meet
                    certain quality standards. Among other things, suppliers are required
                    to deliver the DMEPOS, provide instruction on equipment use (either
                    through the supplier or another qualified party), maintain and repair
                    the equipment as needed, and respond to questions and complaints
                    about the equipment. 21 Appendix C provides a list of the applicable
                    supplier standards.
                    Related Work
                    In 2007, the Office of Inspector General (OIG) released a report that
                    found that almost one-quarter of pump claims in 2004, which were all
                    from KCI, did not meet Medicare coverage criteria, resulting in
                    approximately $21 million in improper payments. 22 Specifically,
                    15 percent of all pump claims were insufficiently documented, another


                          20 LCDs provide guidance to the public and the medical community within their
                       jurisdictions. CMS requires that LCDs be the same for each jurisdiction to ensure
                       uniformity for DMEPOS suppliers that operate nationally. The four LCDs are entitled
                       “LCD for Negative Pressure Wound Therapy Pumps.” The four relevant LCD policy
                       numbers are L5008, L11489, L27025, and L11500. We used the version of the LCDs that
                       was effective during our sample timeframe. Because all four LCDs are the same, we refer
                       to them as “the LCD” for the purposes of this report.
                           21 42 CFR § 424.57(c).
                           22 OIG, “Medicare Payments for Negative Pressure Wound Therapy Pumps in 2004,”
                       OEI-02-05-00370, June 2007.



 OEI-02-07-00660    C O M PA R I S O N   OF   PRICES   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S   5
I N T R O D        U C T             I O N


                    6 percent were undocumented, and an additional 3 percent were not
                    medically necessary. Virtually all pump claims met supplier
                    documentation requirements. OIG recommended that CMS educate
                    suppliers and wound care providers about the appropriate use of pumps.
                    In response, the carriers issued an article reiterating the documentation
                    requirements stated in the LCD. 23


                    METHODOLOGY
                    This study compares the prices that suppliers paid for the new pump
                    models provided to beneficiaries in the first half of 2007 to Medicare’s
                    purchase price for the pumps. In addition, this study provides
                    information about how suppliers acquired these new pumps and about
                    the services that suppliers reported providing to Medicare beneficiaries
                    who rented the pumps.

                    We based this study on two sources of data: (1) a review of suppliers’
                    purchase invoices, contracts, and other financial documents for the new
                    pump models provided to Medicare beneficiaries in the first half of 2007;
                    and (2) a survey completed by suppliers about the services that they
                    provided to the Medicare beneficiaries who rented these pumps.
                    Identification of Claims for New Pump Models
                    We used the 2007 National Claims History File to identify all of the
                    paid claims for the new pump models that: (1) had a service date
                    between January 1 and June 30, 2007; and (2) were received by
                    September 30, 2007. We used the supplier contact information from the
                    National Supplier Clearinghouse to identify the suppliers associated
                    with these claims.

                    We identified a total of 327 paid claims for the new pump models in the
                    first half of 2007, representing 38 suppliers and 237 beneficiaries.
                    These claims represented all of the paid claims for the new pump
                    models that were provided to beneficiaries in the first half of 2007. Of
                    the 38 suppliers associated with these claims, 34 responded to the




                           23 The carriers issued the article entitled “Negative Pressure Wound Therapy LCD
                       Documentation” nationally under four different article numbers: A47170, A45699,
                       A45750, and A45722.



 OEI-02-07-00660    C O M PA R I S O N   OF   PRICES   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S   6
I N T R O D        U C T             I O N


                    request for documentation. 24 We received documentation for a total of
                    304 of the 327 claims, for a response rate of 93 percent.
                    Review of Supplier Documentation
                    We requested from the suppliers the purchase invoice related to the
                    pump associated with each claim. Because the same pump could be
                    associated with multiple claims and because multiple beneficiaries
                    could be associated with the same pump, we compared the serial and
                    model numbers of the pumps listed on the invoices to identify the
                    unique pumps that were provided to beneficiaries in the first half of
                    2007. In total, we identified 240 unique pumps from the 304 claims that
                    we reviewed. We received usable documentation for 223 of the
                    240 identified pumps. These pumps included four different models:
                    Medela Vario, Bluesky Versatile 1, Bluesky V1STA Versatile 1, and
                    Boehringer Engenex.
                    The purchase invoices included the price that the supplier paid for the
                    pumps and any documentation on discounts and shipping charges. To
                    calculate the net purchase price for each pump, we identified the
                    purchase price on the invoice and subtracted any discounts that were
                    listed. We did not include shipping charges in our calculations because
                    of the inconsistencies in how suppliers reported the information. 25
                    We calculated the range and the average prices for the different pump
                    models. Because the number of pumps of each model varied, we also
                    calculated the weighted average price for all of the new pump models.
                    We compared the weighted average price and average prices for the
                    different new pump models to Medicare’s purchase price.

                    For the pumps that were not purchased, we reviewed documents related
                    to the arrangements that the suppliers had with other companies to
                    acquire these pumps. These documents included leasing contracts,
                    rental contracts, rental invoices, and invoices reflecting pump
                    exchanges. We used these documents to describe the different
                    arrangements and to determine the number of pumps that were
                    acquired under each arrangement.

                           24 Two suppliers could not be located. In addition, one supplier did not submit any
                       documentation and another submitted documentation after the study timeframe.
                           25 Based on the available information, regular ground shipping for one pump cost an
                       average of $10. In limited instances, manufacturers used overnight or other forms of
                       expedited shipping, which cost an average of $53 for one pump.



 OEI-02-07-00660    C O M PA R I S O N   OF   PRICES   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S   7
I N T R O D        U C T             I O N


                    Analysis of Supplier Services
                    We surveyed by mail all of the suppliers that provided new pump
                    models to beneficiaries in the first half of 2007. Using a standardized
                    data collection instrument, we requested that suppliers report all
                    services that they provided to beneficiaries for the entire rental period.
                    We specifically asked the suppliers about communication with
                    beneficiaries’ clinicians. We also asked about services in the following
                    categories: delivery, equipment maintenance and repairs, education
                    and training, communication with beneficiaries and/or their caregivers,
                    and any additional services. The suppliers provided information for 215
                    of the 237 beneficiaries.
                    Limitations
                    The description of the services that suppliers provided to beneficiaries
                    during the rental period is based on self-reported data from the
                    suppliers. We did not independently verify their responses.
                    Standards
                    This review was conducted in accordance with the “Quality Standards
                    for Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-02-07-00660    C O M PA R I S O N   OF   PRICES   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S   8
Δ    F I N D I N G S

                                                      Suppliers purchased 171 of the
Suppliers paid an average of $3,604 for the           223 new pump models that were
          new pump models, compared to                provided to beneficiaries in the first
     Medicare’s purchase price of $17,165             half of 2007. Suppliers paid an
                                                      average of $3,604 for these pumps.
                   Medicare reimbursed suppliers for these pumps based on a purchase
                   price of $17,165, which is more than four times the average price paid
                   by suppliers for these new pump models. On a monthly basis, Medicare
                   reimbursed suppliers $1,716 for these pumps for the first 3 months. At
                   this rate, suppliers recouped the average cost of a new pump model in
                   approximately 2 months. Suppliers generally reported that the new
                   pump models have an estimated lifespan of 3 to 5 years. As one
                   supplier noted, pumps are commonly rented to one beneficiary,
                   sanitized, and then rented to another beneficiary.
                   Further, beneficiaries’ coinsurance payments for the pumps cover a
                   substantial portion of the average cost of a new pump model. After just
                   4 months of rental, a beneficiary’s coinsurance of $1,286 covers over
                   one-third (36 percent) of the average cost of a new pump model. If a
                   beneficiary were to rent the pump for all of the 13 months allowed by
                   Medicare, the beneficiary’s coinsurance alone ($3,599) would cover
                   almost the entire average cost of a new pump model.

                   In addition, as shown in Table 1 on the next page, the average prices for
                   all three of the pump models that suppliers purchased were
                   substantially lower than Medicare’s purchase price. 26 The average price
                   that suppliers paid for the three different models ranged from $1,955 to
                   $4,970. 27 The pump that was most commonly provided to beneficiaries
                   in the first half of 2007 had an average price of $2,934.




                        26 Suppliers did not purchase the fourth pump model. That model was acquired only
                      through another arrangement described in the second finding.
                        27 Note that the median price for each of the pump models is similar to the average
                      price.



 OEI-02-07-00660   C O M PA R I S O N   OF   PRICES   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S   9
F   I N D I N G               S




              Table 1: Prices That Suppliers Paid for the New Pump Models*
                                                                                                                                        Difference Between
                                                                                                                                              Average Price
             Model            Number of Pumps                           Range of Prices                        Average Price
                                                                                                                                               and Medicare
                                                                                                                                             Purchase Price
             Model 1                                     8                 $1,085–$2,825                                   $1,995                  $15,170

             Model 2                                    60                 $3,448–$6,173                                   $4,970                  $12,195

             Model 3                                   103                 $2,449–$3,950                                   $2,934                  $14,231

             Weighted average                                                                                              $3,604                  $13,561
            * The prices include documented discounts but not shipping charges.
            Source: OIG analysis of supplier documentation, 2008.


                            The individual prices for all of the pumps that suppliers purchased were
                            also substantially lower than Medicare’s purchase price. The lowest
                            price that suppliers paid for one of the pumps was $1,085, a difference of
                            $16,080 from Medicare’s purchase price. The highest price that
                            suppliers paid for one of the pumps was $6,173, a difference of $10,992.
                            The price for the pump that was most commonly provided to
                            beneficiaries ranged from $2,449 to $3,950.


                                                               Suppliers acquired nearly
           Suppliers acquired one-quarter of the
                                                               one-quarter (52 of 223) of the new
                  new pump models by leasing,                  pump models provided to
                    renting, or exchanging them                beneficiaries in the first half of 2007
                                                               through methods other than
                            purchasing them. Suppliers acquired these pumps through
                            lease-to-own agreements, daily rentals, hourly rentals, or exchanges of
                            old pumps for new ones. 28
                            As shown in Table 2 on the next page, suppliers acquired nearly half of
                            the new pumps that were not purchased (24 of 52) through lease-to-own
                            agreements. These suppliers commonly obtained financing from leasing
                            companies to make bulk purchases of pumps. The leasing companies
                            maintained ownership of the pumps until the suppliers paid for them in



                                   28 Suppliers acquired all four pump models through these methods.




    OEI-02-07-00660         C O M PA R I S O N   OF   PRICES   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S                    10
F   I N D I N G        S


                      full. 29 The prices that these leasing companies paid for these pumps
                      were similar to the prices that suppliers paid to purchase them. The
                      suppliers that leased the pumps cited the high cost of the pumps and
                      general cash flow problems as the reasons why they leased the pumps
                      rather than purchasing them.


                                   Table 2: Methods for Acquiring New Pump Models

                                                                                                                                  Number of Pumps

                                  Lease-to-own                                                                                                 24

                                  Daily rental                                                                                                 16

                                  Hourly rental                                                                                                 8

                                  Exchange of older pumps                                                                                       4

                                     Total                                                                                                     52

                               Source: OIG analysis of supplier documentation, 2008.


                      Suppliers rented slightly more than a quarter of these new pumps
                      (16 of 52) on a daily basis. Under this arrangement, suppliers rented
                      pumps from another DMEPOS supplier for the days that beneficiaries
                      used them. Suppliers paid $30 to $45 per day for these pumps. In
                      addition, suppliers rented another eight of the pumps on an hourly
                      basis. These suppliers purchased “clinical hours” directly from the
                      manufacturer at a rate of $1.44 per hour. They typically bought a block
                      of 2,160 hours for each rental.

                      Suppliers acquired the remaining pumps (4 of 52) by exchanging older
                      pumps with the manufacturer for newer pumps. These pumps were
                      exchanged without cost to the supplier based on a 2:1 ratio (i.e., two old
                      pumps for one new pump).




                             29 The leasing terms ranged from 24 to 72 months.




    OEI-02-07-00660   C O M PA R I S O N   OF   PRICES   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S                11
F   I N D I N G        S



                   Suppliers reported not always          Suppliers are required to
                                                          communicate with the beneficiaries’
               communicating with beneficiaries’
                                                          treating clinicians to assess wound
           clinicians, as required; however, they
                                                          healing progress and to determine
               appeared to meet other standards           whether the beneficiary continues to
                                                          qualify for Medicare coverage of the
                      pump. In addition, to obtain Medicare billing privileges, suppliers
                             30

                      must meet certain standards that include providing delivery and
                      instruction on equipment usage (either from the supplier or another
                      qualified party), maintaining and repairing the equipment as needed,
                      and responding to beneficiaries’ questions and complaints about the
                      equipment. 31
                      Suppliers reported not having contact with clinicians for almost one-quarter
                      of the beneficiaries
                      Suppliers reported having no contact with the treating clinicians for
                      almost one-quarter (28 of 123) of the beneficiaries who rented the new
                      pump models for multiple months. In the absence of clinician input,
                      suppliers cannot determine whether there is a continued medical need
                      for a pump. Therefore, these claims may be inappropriate.

                      In the instances when suppliers reported communicating with
                      clinicians, they most frequently had contact with beneficiaries’ home
                      health staff, followed by physicians. Suppliers noted that they
                      discussed the beneficiaries’ wound progress and supply needs with these
                      clinicians.
                      Suppliers reported delivering pumps and providing education to almost all
                      of the beneficiaries, as well as providing maintenance and repairs when
                      needed
                      Suppliers reported delivering pumps to 96 percent (206 of 215) of the
                      beneficiaries who rented new pump models in the first half of 2007. A
                      small number of beneficiaries picked up their pumps at the supplier’s
                      store. For almost all of the remaining beneficiaries, delivery was
                      provided by the company from which the supplier rented the pump. 32
                      Suppliers most commonly reported delivering pumps to the


                             30 “LCD for Negative Pressure Wound Therapy Pumps.”
                             31 42 CFR § 424.57(c).
                             32 One supplier did not give a reason why it did not provide delivery.




    OEI-02-07-00660   C O M PA R I S O N   OF   PRICES   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S   12
F   I N D I N G        S


                      beneficiaries’ homes, while in other instances they delivered them to the
                      hospital shortly before the beneficiaries’ discharge. Most suppliers
                      reported delivering the pumps themselves, rather than relying on a
                      third-party delivery service.

                      Suppliers reported that they educated 95 percent (205 of 215) of
                      beneficiaries on the use of pumps. Many reported providing training on
                      the day of delivery. Beneficiaries and/or their caregivers were the most
                      common recipients of the training, although in many instances, the
                      beneficiaries’ home health, hospital, or wound care center provider also
                      received training.
                      Suppliers reported pump malfunctions for 13 percent (28 of 215) of the
                      beneficiaries. In most cases, the suppliers reported replacing the
                      pumps; in a few cases, they reported repairing them. Suppliers noted
                      that a few beneficiaries had problems with multiple pumps,
                      necessitating a number of replacements.

                      Finally, suppliers reported communicating with approximately
                      two-thirds (144 of 215) of the beneficiaries or their caregivers during
                      their rental period. Most commonly, suppliers spoke with the
                      beneficiaries and their caregivers about supply needs or wound
                      progress. Suppliers reported that, in a few instances, they visited the
                      beneficiaries in their homes.




    OEI-02-07-00660   C O M PA R I S O N   OF   PRICES   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S   13
Δ      R E C O M M E N D A T I O N S




                  Medicare’s purchase price for pumps was established when there was
                  only one manufacturer in the market. Since then, a number of
                  manufacturers have introduced new pump models to the market and
                  are charging substantially less for them. Specifically, we found that
                  the prices that suppliers paid for the new pump models were
                  significantly less than Medicare’s purchase price. Suppliers paid an
                  average of $3,604 for these pumps, compared to Medicare’s purchase
                  price of $17,165. This price is more than four times the average price
                  paid by suppliers for the new pump models. Aside from our pricing
                  analysis, the winning amounts for the first round of competitive
                  bidding also indicate that suppliers could provide the pump at a lower
                  reimbursement amount than Medicare currently provides.

                  We also found that suppliers acquired one-quarter of the new pump
                  models provided to beneficiaries in the first half of 2007 through
                  lease-to-own agreements, daily rentals, hourly rentals, or exchanges of
                  old pumps for new ones. Additionally, we found that suppliers reported
                  not always communicating with beneficiaries’ clinicians, as required;
                  however, they appeared to meet other standards.

                  Based on the findings in this report, we recommend that CMS:
                  Reduce Medicare’s Reimbursement Amount for Pumps
                  CMS should consider two methods to reduce its reimbursement amount
                  for pumps. CMS should:
                   •     Use its inherent reasonableness authority to reduce the reimbursement
                         amount for pumps
                         CMS should consider using its inherent reasonableness authority
                         to reduce the amount that it reimburses suppliers for the pump.
                   •     Include pumps in the second round of the Competitive Bidding
                         Acquisition Program
                         CMS should include pumps in the second round of the Competitive
                         Bidding Acquisition Program. This could better align Medicare’s
                         reimbursement amount for pumps with the amount that suppliers
                         pay for the new pump models. In addition, if the pump is included
                         in the program, CMS should use the data from this report to assess
                         suppliers’ bids for the pump.



OEI-02-07-00660   C O M PA R I S O N   OF   PRICES   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S   14
 R   E C O        M M E N D A T                              I O N             S


                    In addition, CMS should:
                    Monitor the Growth of the New Pump Market
                    CMS should continue to monitor the growth of the new pump market
                    by tracking trends in market share among different suppliers.
                    Substantial growth in the new pump market may indicate that CMS
                    needs to further align reimbursement with the prices that suppliers
                    pay for the new pump models.
                    Educate Suppliers of New Pump Models on the Importance of
                    Communication With Beneficiaries’ Treating Clinicians
                    CMS should educate suppliers of new pump models that the continued
                    need for the pump can be determined only through clinician input and
                    that it is inappropriate for suppliers to submit claims for continued
                    pump use without this input.
                    Follow Up on Pump Claims That May Be Inappropriate
                    CMS should follow up on the claims in which suppliers: (1) reported
                    having no contact with the beneficiaries’ treating clinicians, (2) could
                    not be located, or (3) did not submit any documentation. CMS should
                    determine whether these claims are inappropriate and should not have
                    been paid. To help CMS address this recommendation, we will forward
                    information about these claims in a separate memorandum.


                    AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                    RESPONSE
                    CMS concurred with four of our recommendations and will consider the
                    remaining recommendation. It noted that it has worked on a number of
                    regulatory and administrative initiatives related to the prescription,
                    coding, and coverage of pumps in response to the significant growth in
                    expenditures for these items.
                    In response to our first recommendation, CMS concurred that it has the
                    authority to adjust payment rates using Medicare’s inherent
                    reasonableness authority. It stated that it will consider whether it
                    would be able to gather valid and reliable data, as the statute requires,
                    to make a determination that the payment amount for pumps is grossly
                    deficient or excessive and to establish, if needed, a new amount that is
                    realistic and equitable.




OEI-02-07-00660     C O M PA R I S O N   OF   PRICES   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S   15
R   E C O        M M E N D A T                       I O N               S


                      In response to our second recommendation, CMS stated that when
                      designing the second round of the Competitive Bidding Acquisition
                      Program, it will consider including pumps.

                      In response to our third recommendation, CMS concurred and stated
                      that it will monitor and track trends in pump usage and track the
                      market share among different pump suppliers.

                      In response to our fourth recommendation, CMS concurred that the
                      continued need for pumps can be determined only through clinical
                      input. In addition, it agreed that suppliers need continued education on
                      local coverage determination requirements for continued coverage of the
                      equipment.

                      In response to our fifth recommendation, CMS concurred and stated
                      that it will strongly encourage its contractors to closely monitor supplier
                      compliance with the local coverage determination requirements. It also
                      stated that it will investigate the need for a claim modifier to be used by
                      suppliers to attest that the prescribing physician has followed up on the
                      beneficiary’s care within the last 30 days. CMS further stated that it is
                      working with its contractors to strengthen its oversight in this area.

                      We support CMS’s efforts to address these issues and encourage it to
                      continue to make progress in these areas. The full text of CMS’s
                      comments is provided in Appendix D.




    OEI-02-07-00660   C O M PA R I S O N   OF   PRICES   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S   16
Δ      A P P E N D I X ~ A



                  Durable Medical Equipment, Prosthetics, Orthotics, and Supplies
                  Competitive Bidding Acquisition Program: First-Round Monthly Fee
                  Schedule Amounts

                  In March 2008, the Centers for Medicare & Medicaid Services
                  released the monthly fee schedule amounts for the first round of the
                  Competitive Bidding Acquisition Program. The following is a list of
                  the monthly amounts for pumps in each of the 10 competitive bidding
                  areas. 33 As a means of comparison, the monthly fee schedule amount
                  in noncompetitive bidding areas is $1,716. 34

                          Table 1: Monthly Fee Schedule Amounts for First Round of
                          DMEPOS 35 Competitive Bidding Acquisition Program
                                                                                                                     Winning Monthly Fee
                         Competitive Bidding Area
                                                                                                                        Schedule Amount

                         Charlotte, North Carolina-South Carolina                                                              $1,458.99

                         Cincinnati, Ohio-Kentucky-Indiana                                                                     $1,373.17

                         Cleveland, Ohio                                                                                       $1,381.18

                         Dallas, Texas                                                                                         $1,373.17

                         Kansas City, Missouri-Kansas                                                                          $1,499.08

                         Miami, Florida                                                                                        $1,373.17

                         Orlando, Florida                                                                                      $1,192.94

                         Pittsburgh, Pennsylvania                                                                              $1,371.58

                         Riverside, California                                                                                 $1,587.72

                         San Juan, Puerto Rico                                                                                 $1,853.84

                               Average monthly fee schedule amount                                                             $1,446.48

                         Source: CMS DMEPOS Competitive Bidding Acquisition Program First Round data, 2008.




                       33 These amounts reflect the first 3 months of rental. For months 4 through 13, the fee
                     schedule amounts are equivalent to 7.5 percent of the winning purchase prices.
                       34 Before competitive bidding, the monthly fee schedule amount for San Juan,
                     Puerto Rico, was approximately $2,060.
                         35 Durable Medical Equipment, Prosthetics, Orthotics, and Supplies.




OEI-02-07-00660   C O M PA R I S O N   OF   PRICES   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S                17
Δ      A P P E N D I X ~ B



                  Local Coverage Determination for Negative Pressure Wound Therapy
                  Pumps

                  This Appendix contains the documentation requirements that were
                  effective between January 1 and June 30, 2007, for negative pressure
                  wound therapy pumps, as they appeared in the local coverage
                  determination (LCD). We have included only the section relevant to our
                  study. Full copies of the LCD can be found at
                  http://www.cms.hhs.gov/mcd/search.asp.
                         General Information: Documentation Requirements
                         Documentation of wound evaluation and treatment, recorded
                         in the patient’s medical record, must indicate regular
                         evaluation and treatment of the patient’s wounds, as detailed
                         in the Coverage and Payment Section. Documentation of
                         quantitative measurements of wound characteristics including
                         wound length and width (surface area), and depth, and
                         amount of wound exudate (drainage), indicating progress of
                         healing must be entered at least monthly. The supplier of the
                         negative pressure wound therapy equipment and supplies
                         must obtain from the treating clinician, an assessment of
                         wound healing progress, based upon the wound measurement
                         as documented in the patient’s medical record, in order to
                         determine whether the equipment and supplies continue to
                         qualify for Medicare coverage. (The supplier need not view the
                         medical records in order to bill for continued use of [negative
                         pressure wound therapy] NPWT. Whether the supplier
                         ascertains that wound healing is occurring from month to
                         month via verbal or written communication is left to the
                         discretion of the supplier. However, the patient’s medical
                         records may be requested by the [durable medical equipment
                         regional carrier] DMERC 36 in order to corroborate that wound
                         healing is/was occurring as represented on the supplier’s
                         claims for reimbursement.)




                      36 DMERCs have subsequently been replaced by Durable Medical Equipment
                     Medicare Administrative Contractors.



OEI-02-07-00660   C O M PA R I S O N   OF   PRICES   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S   18
Δ      A P P E N D I X ~ C



                  Supplier Standards for Medicare Durable Medical Equipment,
                  Prosthetics, Orthotics, and Supplies

                  This Appendix contains selected Medicare supplier standards. We have
                  included only the sections of the supplier standards that are relevant to
                  our study. The full text of the standards appears in 42 CFR § 424.57(c).
                         Application certification standards. The supplier must meet
                         and must certify in its application for billing privileges that it
                         meets and will continue to meet the following standards. The
                         supplier:
                                 (6) Honors all warranties expressed and implied under
                                 applicable State law. A supplier must not charge the
                                 beneficiary or the Medicare program for the repair or
                                 replacement of Medicare-covered items or for services
                                 covered under warranty. This standard applies to all
                                 purchased and rented items, including capped rental
                                 items, as described in Sec. 414.229 of this subchapter. The
                                 supplier must provide, upon request, documentation that it
                                 has provided beneficiaries with information about
                                 Medicare-covered items covered under warranty, in the
                                 form of copies of letters, logs, or signed notices;
                                 (12) Must be responsible for the delivery of Medicare
                                 covered items to beneficiaries and maintain proof of
                                 delivery. (The supplier must document that it or another
                                 qualified party has at an appropriate time, provided
                                 beneficiaries with necessary information and instructions
                                 on how to use Medicare-covered items safely and
                                 effectively);
                                 (13) Must answer questions and respond to complaints a
                                 beneficiary has about the Medicare-covered item that was
                                 sold or rented. A supplier must refer beneficiaries with
                                 Medicare questions to the appropriate carrier. A supplier
                                 must maintain documentation of contacts with
                                 beneficiaries regarding complaints or questions;
                                 (14) Must maintain and replace at no charge or repair
                                 directly, or through a service contract with another
                                 company, Medicare-covered items it has rented to
                                 beneficiaries. The item must function as required and
                                 intended after being repaired or replaced. . . .




OEI-02-07-00660   C O M PA R I S O N   OF   PRICES   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S   19
Δ      A P P E N D I X ~ D




OEI-02-07-00660   C O M PA R I S O N   OF   PRICES   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S   20
A   P   P E N D       I X            ~           D




    OEI-02-07-00660   C O M PA R I S O N   OF   PRICES   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S   21
A   P   P E N D       I X            ~           D




    OEI-02-07-00660   C O M PA R I S O N   OF   PRICES   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S   22
Δ   A C K N O W L E D G M E N T S



                  This report was prepared under the direction of Jodi Nudelman,
                  Regional Inspector General for Evaluation and Inspections in the
                  New York regional office, and Meridith Seife, Deputy Regional
                  Inspector General.

                  Judy Kellis served as the team leader for this study. Other principal
                  Office of Evaluation and Inspections staff from the New York regional
                  office who contributed to the report include Christine Moundas and
                  Iris Lin. Central office staff who contributed include Kevin Farber and
                  Scott Manley.




OEI-02-07-00660   C O M PA R I S O N   OF   PRICES   FOR   N E G AT I V E P R E S S U R E W O U N D T H E R A P Y P U M P S   23
